WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Patricia A. Flowers

19-535
_tt

Connecticut Light
and Power Company
'

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

f

Please enter my appearance as Counsel of Record for all respondents.

I

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I I am a member of the Bar of the Supreme
f I am not presently

a member

Court of the United States.

ofthe Bar ofthis Court. Should

a response be requested, the response

will be frled by a
Signature
Date:

Octo er 24,2019
Honor S. Heath
I Mr, E Ms. !Mrs. IMiss
Eversource Energy Legal Department

(Type or print) Name

Firm

Address

107 Selden Street

City & State
Phone

Berlin

860-665-4865

zip
Email

06037

honor. h eath @eversou rce. com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO S¿'. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COpy
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Patricia A. Flowers, 76 Cambridge Street, West Hartford,

CT 06110

